C@OCKLE

Legal Briefs
Est. 1923,
1-800-225-6964 Web Site

(402) 342-2831 www.cocklelegalbriefs.com
Fax: (402) 342-4850

2311 Douglas Street
Omaha, Nebraska 68102-1214

E-Mail Address:
contact@cocklelegalbriefs.com

No. 19-820

JOHN MCMAHON, in his official capacity as
Sheriff of San Bernardino County, RONALD SINDELAR,
in his official capacity as Deputy Sheriff for
San Bernardino County,

Petitioners,
vs.

CHEMEHUEVI INDIAN TRIBE, on its own behalf
and on behalf of its members parens patriae, and
CHELSEA LYNN BUNIM, TOMMIE ROBERT OCHOA,
JASMINE SANSOUCIE, NAOMI LOPEZ individually,
Respondents.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the REPLY TO BRIEF IN
OPPOSITION in the above entitled case complies with the typeface requirement of Supreme Court
Rule 33.1(b), being prepared in New Century Schoolbook 12 point for the text and 10 point for the
footnotes, and this brief contains 2452 words, excluding the parts that are exempted by Supreme
Court Rule 33.1(d), as needed.

Subscribed and sworn to before me this 14th day of February, 2020.
I am duly authorized under the laws of the State of Nebraska to administer oaths.

PATRICIA BILLOTTE

General Notary . ‘
Seen Eilat: Qu draw be,
My Commission Expires Nov 24, 2020 .

Notary Public Affiant 39465

 

 
